               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Enterprise Technology Services
                   Program

                       Audit Report




                                              July 18, 2013

Report Number SM-AR-13-003
                                                                            July 18, 2013

                                             Enterprise Technology Services Program

                                                         Report Number SM-AR-13-003




BACKGROUND:
The U.S. Postal Service’s Enterprise          although some are not competed.
Technology Services Program consists          Accurately tracking task orders would
of four competitively awarded contracts       enable the Postal Service to correctly
for information technology services.          measure competition and identify areas
Implemented in October 2009, it               for improvement.
provided the opportunity to further
compete task orders among the                 Postal Service officials could also
suppliers. Competition, which allows          improve controls over the award of task
comparisons of competing proposals            orders and associated modifications that
and prices, is seen as a vital                were not further competed. Specifically,
improvement to the previous program ―         59 percent of these actions, totaling
the Preferred Portfolio Partnering            $71.5 million, did not have justification
program, under which the task orders          documenting why the task orders were
were not competed. Postal Service             awarded without further competition.
officials also implemented guidelines         Furthermore, officials did not document a
requiring written justifications when task    formal management review and approval
orders are not further competed under         process for 14 percent of justifications,
the Enterprise Technology Services            totaling $5.7 million.
Program.
                                              Finally, officials did not always
Our objectives were to assess                 document analyses of price and
competition for task orders and controls      technical proposals, which consist of the
over task orders and associated               contracting officer working with subject
modifications that were not competed.         matter experts to ensure reasonable
                                              rates. However, management instituted
WHAT THE OIG FOUND:                           corrective action to this issue in a prior
Compared to no competition under the          report, so we are not making a
Preferred Portfolio Partnering program,       recommendation.
the Enterprise Technology Service
program improved the Postal Service’s         WHAT THE OIG RECOMMENDED:
level of competition. Specifically, we        We recommended management track
determined that officials competed            opportunities to increase competition;
37 percent of task orders during fiscal       ensure awards not competed have
years 2011 and 2012. However, the             justifications; and update guidelines for
Postal Service does not have a system         the requirement of management level
to track and measure competition. All         review and approval of justifications.
task orders are coded as competitive          Link to review the entire report
July 18, 2013

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                                      E-Signed by Michael A. Magalski
                                   VERIFY authenticity with eSign Desktop




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Enterprise Technology Services Program
                           (Report Number SM-AR-13-003)

This report presents the results of our audit of the Enterprise Technology Services
Program (Project Number 13YG004CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachment

cc: Stephen Masse
    Robert L. Oates III
    Rajesh K. Handa
    Susan A. Witt
    Corporate Audit and Response Management
Enterprise Technology Services Program                                                                             SM-AR-13-003



                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Enterprise Technology Services Program Level of Competition ..................................... 2

Noncompetitive Justifications .......................................................................................... 4

Reviews and Approvals of Noncompetitive Justifications ................................................ 5

Technical Analyses of Price and Technical Proposals .................................................... 6

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objectives, Scope, and Methodology .......................................................................... 8

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impacts ..................................................................................... 11

Appendix C: Management's Comments ........................................................................ 12
Enterprise Technology Services Program                                                                 SM-AR-13-003



Introduction

This report presents the results of our audit of the Enterprise Technology Services
(ETS) Program (Project Number 13YG004CA000). Our objectives were to assess
competition for task orders and controls over task orders and associated modifications
that were not competed. This self-initiated audit addresses operational risk. See
Appendix A for additional information about this audit.

The ETS program consists of four competitively awarded contracts for information
technology (IT) services. 1 Implemented in October 2009, it provided the opportunity to
further compete task orders among the suppliers. Competition, which allows
comparisons of competing proposals and prices, is seen as a vital improvement to the
previous program ― the Preferred Portfolio Partnering (PPP) program, 2 under which the
task orders were not competed. U.S. Postal Service management implemented
guidelines 3 requiring written justifications when task orders are not further competed.

Conclusion

Compared to the lack of competition under the PPP program, the ETS program
improved the Postal Service’s level of competition. Specifically, we determined that
Postal Service personnel competed 37 percent of task orders during fiscal years (FY)
2011 and 2012. However, the Postal Service does not have a system to track and
measure competition. All task orders under this program are coded as competitive
although some are not competed. Accurately tracking task orders would enable the
Postal Service to correctly measure competition and identify areas for improvement.

Also, officials could improve controls over the award of task orders and associated
modifications that were not further competed. Specifically, 59 percent of these actions,
totaling $71.5 million, did not have justification documenting why the task orders were
awarded without further competition. Furthermore, officials did not document a
formal management review and approval process for 14 percent of justifications, totaling
$5.7 million. In addition, Postal Service personnel did not always document technical
analyses of price and technical proposals, which consists of the contracting officer (CO)
working with subject matter experts to ensure proposed labor categories and rates are
fair and reasonable. Management subsequently instituted corrective action to ensure
documentation of technical analyses.




1
  Staff Augmentation, Enterprise-Wide Business System Development and Virtual Development Centers.
2
  The basic goals of the PPP program were to award long-term professional service ordering agreements to
enterprise-wide IT providers, assist the Postal Service in delivering business solutions, and maximize the value
obtained from its IT investment.
3
  Guidelines for Competitive and/or Single Source Awards Enterprise Technology Services (ETS).

                                                          1
Enterprise Technology Services Program                                                                 SM-AR-13-003



Enterprise Technology Services Program Level of Competition

The Postal Service competed 37 percent (75 of 204) of the ETS task orders for
FYs 2011 and 2012. However, the Postal Service does not track task orders that
are not further competed. Of the 204 task orders 4 reviewed, we determined 63 percent
(129 of 204) were not further competed as detailed in Figure 1.

                           Figure 1. Analysis of ETS Task Orders




                                      75
                                     37%               129                 Task Orders Not Competed

                                                       63%                 Task Orders Competed




                                 Source: U.S. Postal Service Office of Inspector General (OIG) review of task orders.

Of the 129 task orders not competed, the Postal Service awarded

                                          The Postal Service awarded 57 of these task
orders based on sole source business scenarios. 5 Of the 57 sole source task orders,
the Postal Service awarded
The Postal Service awarded the remaining 72 task orders based on compelling
business interest (CBI) business scenarios, 6 as shown in Table 1.

In addition, as shown in Table 1,




4
  Universe of task orders reviewed with active spend in FYs 2011 and 2012.
5
  Sole source is a business scenario through which only a single supplier is capable of satisfying the requirement.
6
  CBI is a business scenario through which a specific supplier can meet Postal Service needs quickly and efficiently,
and the benefits of doing so outweigh those that may be realized through competition.

                                                          2
 Enterprise Technology Services Program                                                                  SM-AR-13-003




           Table 1. Analysis of ETS Task Orders and Award Spend by Supplier
                                   FYs 2011 and 2012


                                                                                                                Total

Task Orders Not
Competed
Percentage of Task Orders
Not Competed
Not Competed Spend (in
millions)
Percentage of Not
Competed Spend

Task Orders Competed
Percentage of Task Orders
Competed
Competed Spend (in
millions)
Percentage of Competed
Spend

Total Task Orders
Total Spend (in millions)
 Source: OIG review of task orders.

 The Postal Service does not have a system to track the number of task orders that are
 not further competed. Personnel are required to code every ETS task order as
 competitive in the Contract Authoring Management System (CAMS) 7 because the
 contracts were competitively awarded. 8 However, the task orders may be further
 competed if it is in the best interests of the Postal Service. 9 Tracking task orders that
 are not further competed would enable the Postal Service to correctly measure
 competition and identify areas for improvement.




 7
   The CAMS is the Postal Service primary contracting system, which supports the procurement of supplies, services,
 equipment, and transportation (excluding highway transportation).
 8
   Supplying Practices Step 4-1.4.3, Multiple Indefinite-Delivery Contracts, states all orders subsequent to the award of
 multiple indefinite-delivery contracts are considered competitive.
 9
   Management Instruction SP S2-2011-1, Noncompetitive Purchases, dated February 7, 2011.

                                                            3
Enterprise Technology Services Program                                                                   SM-AR-13-003



Noncompetitive Justifications

The Postal Service needs to improve its controls over task orders and associated
modifications that were not further competed. According to IT Software, Services, and
Retail Systems (SS&RS) Category Management Center (CMC) guidelines, task orders
that were not competed further must have a justification. Of the 301 task orders and
modifications that were not further competed,10 179 (59 percent) were missing
noncompetitive justifications as shown in Figure 2.

                         FIgure 2. Missing Noncompetitive Justifications




                                       122
                                       41%                                Missing Justifications
                                                         179
                                                                          Documented Justifications
                                                         59%




                                 Source: OIG review of task orders.

Of these 179 task orders and modifications that were not further competed and missing
noncompetitive justifications, 91 11 were based either on a supplier’s unsolicited offer to
sell the rights to ideas, concepts, products, processes, or technology (value added
proposal) or for the creation of new business processes, methods, products, or services
(research and development proposal). Postal Service officials did not believe a
noncompetitive justification was required for these task orders. However, these task
orders allowed the suppliers to submit ideas and concepts without competition.
Therefore, noncompetitive justifications would have helped to ensure best value 12 was
achieved when awarding them.

Forty-seven task orders were awarded before guidelines were established for the ETS
program. In response to audit report Information Technology’s Preferred Portfolio
Partnering Program (Report Number CA-AR-09-007, dated September 29, 2009), Postal
Service management agreed to implement guidelines that required a justification for task
orders that were not further competed by January 2010. However, management did not

10
   We reviewed 1,020 task orders and modifications to determine whether they were competed. We determined
51 were competitively awarded and 668 were administrative actions (for example, renewal of options, extension of
period of performance, designation of a contracting officer representative, or addition of funding).
11
   Eighty-six were based on unsolicited or value added proposals and five were based on research and development
funds.
12
   The ETS guidelines defined best value as the outcome that provides the optimal combination of elements such as
lowest total cost of ownership, technology, innovation and efficiency, assurance of supply, and quality relative to the
Postal Service’s needs. Further, the guidelines stated best value is generally achieved through competition, which
brings market forces to bear and allows the direct comparison of proposals and lifecycle costs, although market
conditions may dictate that a single source strategy will be the best business approach.

                                                           4
Enterprise Technology Services Program                                                                  SM-AR-13-003



implement the requirement until August 2010. The remaining 41 task orders did not have
a noncompetitive justification because of the lack of oversight by Postal Service
personnel. When the Postal Service does not award a task order through open
competition, personnel must document and verify the rationale for not competing it. With
no noncompetitive justification, there is reduced assurance that it was proper for the
task order to be awarded without competition. We will report the 179 task orders and
modifications that were not competed and did not have a justification totaling $71.5 million
as unsupported questioned costs (see Appendix B).

Reviews and Approvals of Noncompetitive Justifications

The Postal Service does not have a formal management review and approval process for
ETS noncompetitive justifications. We found 17 of 122 (14 percent) noncompetitive
justifications did not have any review and approval. Postal Service personnel stated the
IT SS&RS CMC manager directed the CO to approve noncompetitive justifications
valued at $250,000 and below and the manager would approve noncompetitive
justifications greater than $250,000; however, this guidance is not documented. The
Postal Service must document guidelines for the review and approval of noncompetitive
justifications. We will report the 17 noncompetitive justifications lacking management
review and approval 13 totaling $5.7 million as unsupported questioned costs (see
Appendix B).

In addition, of the 301 task orders and modifications that were not competed,
62 were $1 million or greater. The Postal Service competition advocate (CA) is required
to provide independent advice to COs regarding proposed noncompetitive purchases of
$1 million or greater and is responsible for assisting purchase teams in developing
effective supply chain management solutions and obtaining best value. However,
because the Postal Service considers all ETS task orders competitive, the CA does not
review the adequacy of justifications completed for the ETS program. In contrast, the
Federal Acquisition Regulation (FAR) requires a justification for a proposed
noncompetitive task order awarded under a multiple award contract be approved by the
CA. 14 In addition, federal CAs are responsible for describing initiatives that ensure
noncompetitive task orders greater than $1 million issued under multiple award
contracts are properly planned and comply with policies and procedures. 15 We are
planning a more detailed review of CA oversight of task orders not further competed
during a future audit.




13
   Of the 17 noncompetitive justifications with no reviews and approvals, 10 totaling $3,829,623.93 were prepared
before policies and procedures were established in August 2010.
14
   FAR 6.304, Approval of the Justification. For proposed task orders exceeding $650,000 but not more than
$12.5 million.
15
   FAR 6.502, Duties and Responsibilities.

                                                           5
Enterprise Technology Services Program                                                              SM-AR-13-003



Technical Analyses of Price and Technical Proposals

Postal Service personnel did not always document technical analyses16 of price and
technical proposals. Specifically, 84 percent (252 of 301) of technical analyses of the
price proposals and 91 percent (275 of 301) of technical analyses of the technical
proposals were missing. In audit report Accenture Federal Services Contracts (Report
Number SM-MA-13-001, dated December 17, 2012), the OIG recommended the Postal
Service obtain, assess, and maintain technical analysis documentation to ensure the
analysis conducted is adequate to support whether proposed labor categories and rates
are fair and reasonable. The Postal Service agreed with the recommendation and
instituted corrective action. Therefore, we will not make a new recommendation on this
issue.

Recommendations

We recommend the vice president, Supply Management, direct the manager,
Information Technology Software, Services and Retail Systems Category Management
Center, to:

1. Develop a method to track task orders not further competed under the Enterprise
   Technology Services Program to identify opportunities to increase competition.

2. Update guidelines to ensure all Enterprise Technology Services task orders and
   modifications that are not further competed have justifications.

3. Update guidelines to include the requirement for management review and approval
   of Enterprise Technology Services justifications for task orders and modifications
   that are not further competed.

We also recommend the vice president, Supply Management:

4. Require the competition advocate to independently review Enterprise Technology
   Services justifications for task orders and modifications valued at $1 million or more
   that are not further competed to determine whether the justifications are appropriate
   or competition is warranted.

Management’s Comments

Management generally agreed with the findings and monetary impact. Management
agreed with recommendation 1 and will develop a method to identify task orders that
are not further competed. Management agreed with recommendation 2 and will update
guidance to ensure CBI justifications are completed for task orders associated with
research and development projects and value added proposals. Management also
agreed with recommendation 3 and will update guidance to include the review and

16
  Technical analysis consists of the CO working with subject matter experts to ensure proposed labor categories and
rates are fair and reasonable.

                                                         6
Enterprise Technology Services Program                                          SM-AR-13-003



approval of CBI justifications. Management plans to implement actions for these
recommendations by September 2013.

Regarding recommendation 4, management disagreed and stated that since the Postal
Service awarded the ETS program’s indefinite delivery, indefinite quantity (IDIQ)
contracts competitively, the associated task orders are considered competitive.
Therefore, the Postal Service does not require the CA to review them. See Appendix C
for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1, 2, and
3 and corrective actions should resolve the issues identified in the report.

Management disagreed with recommendation 4 to require the CA review ETS
justifications for task orders and modifications valued at $1 million or more that are not
further competed. We do not plan to pursue this recommendation through the formal
audit resolution process. Therefore, we are closing the recommendation with the
issuance of this report. Because the ETS program’s IDIQ contracts were competitively
awarded, the Postal Service considers the associated task orders to be competitive.
However, we believe the CA should independently review task orders valued at $1
million or more that are not further competed. The additional control would assist the
Postal Service in challenging barriers to the competition of requirements and assist in
ensuring best value. We plan a detailed analysis of this issue in future review of the
CA's oversight of contracting actions.

The OIG considers recommendations 1, 2, and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                             7
Enterprise Technology Services Program                                                              SM-AR-13-003



                                Appendix A: Additional Information

Background

In September 2009, collaboration between IT and Supply Management resulted in the
competitive award of ETS program multiple IDIQ contracts 17 to four suppliers for IT
services. The program provided the opportunity to further compete task orders among
the suppliers. The awards enabled IT to consolidate, streamline, and reduce the cost of
future services through reduced rates and best-in-breed business solutions. The ETS
program awards replaced the PPP program agreements, IT Services and Support, and
other contracts. The ETS program was designed to provide lower costs and bring
innovative ideas to customers while leveraging cutting edge technology solutions.

The base contract awards were for a period of 3 years with Postal Service options for
up to an 11-year period of performance.

ETS program guidance states that rather than awarding all task orders based on lowest
price, the Postal Service should consider a best value approach for tasks involving
business solutions. Open competition allows suppliers to propose alternate solutions
and select the best approach/lowest total cost of ownership. In addition, for the task
order competitions, suppliers should be able to propose rates at or below the multiple
IDIQ contract rates.

For task orders not competed, it is important for COs to determine cost reasonableness
by assessing the technical analysis of estimated labor costs. If the CO does not assess
the technical analysis, he or she cannot ensure the evaluation was adequate and the
proposed labor categories and hours were reasonable or necessary.

Objectives, Scope, and Methodology

Our objectives were to assess competition for task orders and controls over task orders
and associated modifications that were not competed. Our audit universe was
comprised of 204 base task orders active in FYs 2011 and 2012. We:

    Determined whether they were competed.

    Determined how many Postal Service personnel coded as noncompetitive in the
     CAMS.

    Compared Postal Service policy for multiple IDIQ contracts to the FAR and
     Postal Service policy for coding of multiple IDIQ task orders to the Federal
     Procurement Data System – Next Generation.


17
  An IDIQ contract is awarded when the desired period of performance is known, but the exact time of delivery is
unknown at the time of award, and when precise requirements for supplies or services ordered over the term of the
contract cannot be determined.

                                                         8
Enterprise Technology Services Program                                       SM-AR-13-003



Our audit sample covered 1,020 task orders and associated modifications. We reviewed
and analyzed each sample task order and the associated modification(s) to determine
whether they were competed. In addition, we tested whether the controls were
adequate by determining whether Postal Service personnel:

   Completed noncompetitive justifications.

   Appropriately reviewed and approved the noncompetitive justifications.

   Performed technical analyses of the price and technical proposals for each
    noncompetitive action.

We conducted this performance audit from October 2012 through July 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on June 3, 2013, and included their
comments where appropriate.

To conduct this review, we relied on computer-processed data in the CAMS and
Enterprise Data Warehouse. We did not test the validity of controls over these systems.
However, we verified the accuracy of the data by comparing the data to contract
documentation. We determined that the data were sufficiently reliable for the purposes
of this report.




                                           9
Enterprise Technology Services Program                                          SM-AR-13-003




Prior Audit Coverage

                                                           Final
                                            Report        Report            Monetary
            Report Title                   Number          Date              Impact
  Accenture Federal Services             SM-MA-13-001   12/17/2012         $8,294,045
  Contracts
  Report Results: The OIG found that Accenture initiated policy changes to fully
  address six of eight Defense Contract Audit Agency (DCAA) recommendations.
  However, it did not fully address the recommendation to conduct periodic reviews of
  its estimating system, and no corrective actions are underway to address the
  recommendation to monitor actual costs to estimated costs. In addition,
  Postal Service contracting officials did not obtain and assess the IT subject matter
  experts’ technical analyses performed on eight proposals, valued at $8,204,045 to
  support that costs were reasonable. IT management also purchased a cost
  estimating tool to assist in evaluating supplier estimates but they have not fully
  implemented the tool, resulting in $90,000 in questioned costs. Management
  agreed with our findings and recommendations.

  Audit of Accenture Federal
  Services, LLC’s Estimating         CA-CAR-12-008 6/26/2012          None
  System and Related Internal
  Controls
  Report Results: The DCAA determined that Accenture’s estimating system and
  related internal controls were inadequate.

  Information Technology’s
  Preferred Portfolio Partnering      CA-AR-09-007      9/29/2009             None
  Program
  Report Results:
  The price and cost analysis Postal Service personnel performed usually did not
  result in negotiated price reductions of Accenture LLC’s proposals. Additionally,
  Supply Management personnel did not always follow the recommendations of a
  third-party contractor to reduce task order amounts or reject them in full. In addition,
  the PPP program pricing process did not conform to current best practices for
  pricing IT service contracts and task orders. However, Supply Management
  personnel had implemented IT service industry best practices by making plans to
  award multiple IDIQ contracts for IT services. Management agreed with our findings
  and recommendations.




                                              10
Enterprise Technology Services Program                                                                SM-AR-13-003




                                    Appendix B: Monetary Impacts

       Recommendation                      Impact Category                                    Amount
             2                     Unsupported Questioned Costs18                             $71,512,899
             3                     Unsupported Questioned Costs                                 5,708,609
           Total                                                                              $77,221,508

The $71,512,899 represents the total value of the 179 task orders and modifications that
were not further competed and did not have a justification. The $5,708,609 represents
the total value of the 17 noncompetitive justifications that did not have any review and
approval.




18
  A weaker claim and a subset of questioned costs. Claimed because of failure to follow policy or required
procedures but does not necessarily connote any real damage to Postal Service.

                                                         11
Enterprise Technology Services Program                        SM-AR-13-003



                          Appendix C: Management's Comments




                                         12
Enterprise Technology Services Program        SM-AR-13-003




                                         13
Enterprise Technology Services Program        SM-AR-13-003




                                         14
